HHS/OIG - Audit,"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment and Supplies at the Michigan Department of Community Health - January 1, 1998 through December 31, 1999,"(A-05-00-00083)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment
and Supplies at the Michigan Department of Community Health - January 1,  1998
through December 31, 1999," (A-05-00-00083)
October 12, 2001
Complete
Text of Report is available in PDF format (228 kb).  Copies can
also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Medicaid providers received reimbursements
for oxygen related items of durable medical equipment (DME) and supplies at
rates that were higher than the Medicare allowable amount.  The higher
reimbursements occurred because the State agency did not reflect Medicare reductions
in the Medicaid reimbursement limits set for these items.  Based on our
review of payments for Medicaid DME and supply claims with dates of service
during our audit period of January 1, 1998 through December 31, 1999, we found
that savings of approximately $2 million (Federal share $1 million) could have
been realized if the Medicaid rates had been limited to amounts allowable under
the Medicare program.  We have recommended that the State limit the maximum
allowable price for DME and supplies to an amount equal to or less than the
Medicare allowable amount for the same items.